                                                           NATIONAL SCIENCE FOUNDATION
                                                            OFFICE OF INSPECTOR GENERAL
                                                              OFFICE OF INVESTIGATIONS

                                                    CLOSEOUT MEMORANDUM

Case Number: A12080055                                                                    Page 1 of 1




               We received an allegation that the PI 1 on an NSF award 2 and individuals from a
                                                                                           4
       subawardee 3 engaged in intellectual theft of the work of a former graduate student of the PI.
       Specifically, it was alleged that the PI wrote the NSF proposal, which included the graduate
       student's work, without the student's knowledge. It was also alleged that the subawardee
       publicized the graduate student's research as its own, without attribution. The allegation stated
       that the PI's institution5 conducted an inquiry and concluded no investigation was warranted, but
       raised concerns with the process.

               We obtained the institution's inquiry report. It concluded that the contested material in
       the PI's proposal was from work he and the graduate student co-authored. It also concluded that
       the subawardee was conducting research into this area before the graduate student's work was
       published, and that the subawardee attributed the co-authored material to the PI when used.

              We independently reviewed materials constituting the research misconduct allegation and
       the inquiry report, as well as the NSF proposal. We concurred that the PI co-authored the
       contested material with the graduate student, and as such has the right to reuse the material and
       ideas. We also concurred that the sub awardee was working on this idea prior to the graduate
       student and PI's publication, and that it generally did adequately cite material from that paper
       when used. Lastly, our review determined that neither the NSF proposal nor the subawardee's
                                                                             6
       website contained verbatim material from graduate student's thesis.

               Based on our review, we conclude that a research misconduct investigation is not
        warranted. The case is closed with no further action taken.




         5
         6   The graduate student provided a portion of her thesis to our office.




NSF 0\G Fonn 2 (l\ /02)
